     Board of Governors of the Federal Reserve System




APPLYING AGREED-UPON PROCEDURES—
STATEMENT OF FINANCIAL ACCOUNTING
          STANDARDS No. 112




    OFFICE OF INSPECTOR GENERAL

                                                   March 2007
                                        March 28, 2007



Mr. Todd Glissman
Senior Associate Director
Management Division
Board of Governors of the Federal Reserve System
Washington, DC 20551

Subject: Applying Agreed-Upon Procedures—Statement of Financial Accounting Standards
        No. 112

Dear Mr. Glissman:

     The retirement plan for employees of the Federal Reserve System (System) is a defined
benefit pension plan established to provide pension benefits to eligible employees of the Federal
Reserve Banks and the Board of Governors of the Federal Reserve System (Board). In 2000, the
Office of Employee Benefits (OEB) outsourced most retirement plan administrative and
processing functions to Hewitt Associates (Hewitt). To administer the plans, Hewitt stores
employee census data in their Total Benefits Administration (TBA) system. On an annual basis,
Hewitt forwards census data to the Federal Reserve System’s actuary, Towers Perrin, to perform
year-end actuarial calculations and prepare related financial statement disclosures.

     During the 2005 financial statement audit, the Board’s external auditors noted issues with
the accuracy of census data used for actuarial calculations. As part of an effort to implement
recommendations made by the external auditors, Management Division (MGT) staff compared
census data used by the actuary to support Statement of Financial Accounting Standards No. 112,
Employers’ Accounting for Postemployment Benefits (FAS112), with comparable data in the
Board’s human resources management system.

      The Office of Inspector General has performed the procedures that were agreed upon by
you and your staff, solely to help you respond to recommendations made during the 2005
financial statement audit and to assist you in verifying the accuracy of the comparison performed
by MGT staff on the FAS112 data files. The adequacy of these procedures to meet your
objectives is your responsibility, and we make no representation in that respect. We agreed to
compare selected census data provided by Towers Perrin with data retrieved from the Board’s
human resources management system. The specific data elements we compared and the results
of our comparison are described in the enclosure. The enclosure also provides a comparison of
our results with that of MGT staff. We provided the details of our exceptions to MGT staff
during our closing meeting.
Mr. Todd Glissman                                 2                               March 28, 2007


      In performing the agreed-upon procedures, we conducted our work in accordance with U.S.
generally accepted government auditing standards which incorporate financial audit and
attestation standards established by the American Institute of Certified Public Accountants.
These standards also provide guidance for performing and reporting the results of agreed-upon
procedures.

     We were not engaged to and did not conduct an examination, the objective of which would
be the expression of an opinion on the accuracy of the census data. Accordingly, we do not
express such an opinion. Had we performed additional procedures, other matters might have
come to our attention that would have been reported to you. We completed the agreed-upon
procedures on February 15, 2007.

   We provided a draft of this letter to MGT staff, along with its enclosure, for review and
comment. They concurred with the contents of this letter and its enclosure.

     This report is intended solely for the information and use of MGT and should not be used
by those who have not agreed to the procedures and have not taken responsibility for the
sufficiency of the procedures for their purposes. However, this report will be added to our
publicly-available web site, summarized in our next semiannual report to the Congress, and is
not subject to any distribution limitations. Please contact me if you would like to discuss this
report or any related issues.

                                            Sincerely,



                                         Barry R. Snyder
                                        Inspector General


Enclosure

cc: Governor Kevin M. Warsh
    Vice Chairman Donald L. Kohn
    Mr. Stephen Malphrus
    Ms. Fay Peters
    Mr. Darrell Pauley
    Mr. Christopher Suma
    Mr. Bill Mitchell
    Ms. Cynthia Gray
                                                                                                Enclosure

                                                      3

Results of Agreed-Upon Procedures

The table below details the agreed-upon procedures we performed as well as our findings and
results. The Towers Perrin file was provided by MGT staff in an e-mail dated January 18, 2007,
and includes actuarial data used for the January 1, 2006, FAS112 valuation. The Board file was
provided by MGT staff in an e-mail dated January 24, 2007, and includes individuals who were in
the Board’s human resources management system as of January 1, 2006. The results of the MGT
staff comparison were received in an e-mail dated January 18, 2007.

 Data Elements                                            Description of findings and results
 a. Name

 Compare the TP_Name field in the Towers Perrin
 file to the BD_Name field in the Board file.

 (i) Active employees                                     We found three exceptions as a result of the
                                                          procedure: The names of three employees do
                                                          not exactly match. The MGT staff comparison
                                                          also found the same three exceptions.

 (ii) Inactive employees                                  We found one exception as a result of the
                                                          procedure: The name of one inactive employee
                                                          does not exactly match. The MGT staff
                                                          comparison also found the same exception.
 b. Social Security Number

 Compare the TP_SSN field in the Towers Perrin file
 to the BD_SSN field in the Board file.

 (i) Active employees                                     We found no exceptions as a result of the
                                                          procedure. The MGT staff comparison also
                                                          found no exceptions.

 (ii) Inactive employees                                  We found one exception as a result of the
                                                          procedure: The social security number of one
                                                          inactive employee does not exactly match. The
                                                          MGT staff comparison also found the same
                                                          exception.
                                                4                                      Enclosure


c. Date of Birth

Compare the TP_BirthDate field in the Towers
Perrin file to the BD_BirthDate field in the Board
file.

(i) Active employees                                   We found no exceptions as a result of the
                                                       procedure. The MGT staff comparison also
                                                       found no exceptions.

(ii) Inactive employees                                We found no exceptions as a result of the
                                                       procedure. The MGT staff comparison also
                                                       found no exceptions.
d. Sex

Compare the TP_Sex field in the Towers Perrin file
to the BD_Sex field in the Board file.

(i) Active employees                                   We found no exceptions as a result of the
                                                       procedure. The MGT staff comparison also
                                                       found no exceptions.

(ii) Inactive employees                                We found one exception as a result of the
                                                       procedure: The sex of one inactive employee
                                                       does not exactly match. The MGT staff
                                                       comparison also found the same exception.
e. Creditable Service Date

Compare the TP_CredSvcDa field in the Towers
Perrin file to the BD_ServiceDate field in the Board
file for Board Plan participants only.

(i) Active employees                                   We found three hundred thirty-five exceptions
                                                       as a result of the procedure: the creditable
                                                       service dates of these employees do not exactly
                                                       match. The MGT staff comparison also found
                                                       the same three hundred thirty-five exceptions.

                                                       The differences in creditable service dates for
                                                       eighteen (5 percent) of the three hundred thirty-
                                                       five employees were greater than thirty days.

(ii) Inactive employees                                We did not compare this data element because
                                                       the Towers Perrin file did not contain a
                                                       creditable service date field for inactive
                                                       employees. The MGT staff also did not
                                                       perform this comparison.
                                                   5                                           Enclosure



f. Base Compensation and Shift Differential

Compare the TP_ToEarnings field in the Towers
Perrin file to a computed amount using selected
fields in the Board file. Specifically, we summed the
base compensation amount (Comprate) and the
annualized shift differential earnings. Shift
differential earnings include the following fields:
2nd Shift Earnings, 3rd Shift Earnings, Field Staff
Differential, Governors Adjustment, Differential
Pay, Annuitant Salary Reduction, and Regular
Earnings. For the Bank Plan participants, shift
differential earnings also include Night Differential
Earnings. For the purpose of this comparison, we
used the shift differential amounts from the last pay
period of 2005 multiplied by 26.

(i) Active employees                                    We found one thousand three hundred eighty-
                                                        six exceptions as a result of the procedure: The
                                                        sum of the base compensation and shift
                                                        differential amounts of these employees does
                                                        not exactly match the TP_ToEarnings field in
                                                        the Towers Perrin file. The number of
                                                        exceptions decreased to one hundred eight
                                                        when we added variable pay components (such
                                                        as Y2K Cash Award, Cash Award Payment,
                                                        Employee Suggestion Award, Economist
                                                        Variable Pay, Performance Cash Award, and
                                                        Special Achievement Award) to the computed
                                                        Board amounts. This comparison was included
                                                        as one of the agreed-upon procedures even
                                                        though MGT staff did not perform this
                                                        comparison.

(ii) Inactive employees                                 We did not compare this data element because
                                                        the Towers Perrin file did not contain a total
                                                        earnings field for inactive employees. The
                                                        MGT staff also did not perform this
                                                        comparison.
